                       Verification of Payments to Biopreparat

Introduction
On January 27, 2000, the NASA Associate Administrator for Space Flight directed that a
NASA team be formed to review the funding process for biotechnology research under the
Russian Space Agency (RSA)1 contract (NAS15-10110) to determine whether NASA funds
were used for their intended purpose. NASA directed the review because a January 25, 2000,
New York Times article reported an allegation by certain Russian scientists that some of the
$1.65 million that NASA provided to fund biotechnology research may have been
inappropriately redirected by Biopreparat, a major Russian pharmaceutical firm, to fund
biological warfare research. The NASA team included financial, procurement, and technical
officials from the Lyndon B. Johnson Space Center (JSC) and an auditor from the NASA
Office of the Inspector General. (A list of the participants is at the end of this report.) The team
performed the verification at JSC in late January and early February 2000 and at
Rosaviakosmos during February 7-11, 2000. Appendix A provides details on scope and
methodology.

Background
The RSA contract is a firm-fixed-price contract, originally priced at $400 million, initiated in
December 1993 via letter contract, and definitized in June 1994. As of February 2000, the
contract value was about $537 million, of which $529 million has been obligated and
$523 million has been spent. The RSA contract includes two phases. Phase I involved Shuttle
missions to the Russian Mir space station. Phase II involves Russian services and supplies for
the International Space Station (ISS).

The RSA contract specifies a variety of deliverable items and services to be provided to NASA
by RSA (Appendix B describes the acceptance and payment process for deliverable items).
These include not only U.S. crew missions and Shuttle docking at Mir, but also crew training;
integration, accommodation, and operation of U.S. research hardware on Mir; cosmonaut time
for the operation of experiments; and technical data regarding the characteristics of Mir. The
research program to be conducted on Mir was coordinated between the NASA and RSA by a
joint Mission Science Working Group. In addition to the flight research program on Mir, the
contract required a separate program of predominately ground-based research to be conducted
by Russian investigators.

The contract earmarked funding of $20 million for the solicitation, selection, administration, and
execution of a research program to be carried out under the RSA Scientific and Technical
Advisory Council (STAC). The contract also identified specific deliverable items, which RSA
was to complete between August 1994 and August 1997 (Appendix C shows the list of

1
    Now known as the Russian Aviation and Space Agency (Rosaviakosmos).

                                                    1
deliverable items). A total of $18.2 million was available for distribution to investigators
(scientists), with the remainder of $1.8 million allocated for administrative and reporting
expenses, including the solicitation, review, and selection of project proposals. The contract
provided that RSA, through STAC, would use the proposals to develop an integrated research
plan containing scientific investigations to be performed, milestones, goals, objectives, and cost.
The Deputy Associate Administrator, Office of Life and Microgravity Sciences and
Applications, was responsible for reviewing the research plan for NASA.

STAC was organized into ten discipline sections (Appendix D shows the ten discipline
sections); each section was chaired by an acknowledged leader in the field who was the
director (or, in some cases, a senior official) of a research institute or design bureau. Each
section had multiple investigations, representing a variety of research institutions. One of the
sections was Biotechnology, which was led by Biopreparat and which had funding requirements
of about $1.65 million.

Results of Verification
Between February 1995 and January 1998, NASA paid RSA $20 million for space-related
scientific research under terms of the RSA contract. Of the $20 million, RSA paid Biopreparat
$1.529 million2 for space biotechnology scientific research. 3 Of the $1.529 million, Biopreparat
distributed $1.368 million (89.5 percent) to its eight subcontractors and retained $0.161 million
(10.5 percent). (Appendix E shows the distribution of the $1.529 million.) The activities
associated with the $0.161 million were carried out directly by Biopreparat under terms of an
RSA contract with Biopreparat. The contract price structure showed how Biopreparat planned
to use the funds that they retained. Also, RSA submitted periodic reports to NASA as contract
deliverable items, which NASA accepted as satisfactory completion of the planned research.
Within the scope of our verification, we saw no indication that the funds were used for other
than the intended purpose.4 We concluded, based on the evidence collected, that there was no
need to expand the scope of the verification.




2
  The $1.529 million was actually paid in rubles (about 7.904 billion) at an average pre-1998 conversion rate of
about 5,170 rubles to a dollar.
3
  RSA also paid about $0.121 million to the Shemyaking Ovchinnikov Institute of Bioorganic Chemistry,
which constitutes the balance of the $1.65 million that NASA paid for biotechnology research.
4
  A verification of the funding process can determine the sources, recipients, and amount of funds paid.
However, only through additional steps, such as gaining an understanding of the entity, observing its
operations, and obtaining independent third party information, might a positive assurance be given on how
the funds were actually used. Contractual access is limited to examination of financial information of RSA
and its first-tier subcontractors.

                                                        2
                       Appendix A. Scope and Methodology

We selected our sample of payments and performed initial verification steps at JSC. We then
met with Rosaviakosmos representatives in Moscow to discuss their financial process and
perform further verification steps.

Steps Performed at the Johnson Space Center

Before we visited Rosaviakosmos, the JSC Financial Management Division identified all
payments made for implementation of scientific and research activities under the scientific
program of contract NAS15-10110 between NASA and RSA, carried out by Biopreparat
under subcontract with RSA. The Financial Management Division identified 18 contract
milestone payments to RSA totaling $20 million, with which RSA paid Biopreparat $1.529
million for 6 subcontract milestones (Appendix C shows the contract milestones). We reviewed
contract payment records from November 1994 through January 1997 and subcontract
payment records from September 1995 to February 1998. To verify payment amounts and
dates, we compared the amounts and dates of the six invoices to JSC payment records.5

Steps Performed at the Russian Space Agency

At Rosaviakosmos, we compared our data to RSA financial records to verify NASA payments
to RSA and the funding flow to Biopreparat. Through discussions with Rosaviakosmos
representatives, we gained an understanding of the financial processes and procedures used by
RSA to disburse funds to the subcontractors for biotechnology research. Rosaviakosmos
assembled all associated financial records, contract files, and the bank payment orders
associated with the six milestones. In addition, Rosaviakosmos and Biopreparat presented
copies of subcontractor payment orders that supported the transfer of funds from Biopreparat
to its subcontractors.

We reviewed RSA documentation supporting applicable milestones, associated payment
orders, and bank transfer notices. To determine how Biopreparat planned to distribute and use
the funding provided by NASA, we reviewed the RSA/Biopreparat price structure and related
subcontract documents. We examined ten funding transfers from RSA to Biopreparat, which
represented the $1.529 million paid by NASA. We also examined and summarized 140
funding transfers from Biopreparat to its eight subcontractors, which represented $1.368 million
paid by NASA, and thereby calculated the $0.161 million retained by Biopreparat (Appendix E
shows the calculation).

5
 The payment records were the EFT Tape Transmission Report (R81P6C20) and the Cash Management
Detail Schedule Listing (R81P6C04), which were generated by the JSC Cash Management System.




                                                 3
    Appendix B. Acceptance and Payment Process for Deliverable Items

The RSA contract includes a schedule of deliverable items showing the amounts NASA will pay
RSA for providing specific goods and services. NASA acknowledges receipt of a deliverable
item when the NASA contracting officer’s technical representative determines that the item
conforms to contract requirements and notifies the NASA contracting officer at JSC. The
contracting officer prepares and sends an acceptance document to RSA, which in turn prepares
and sends an invoice back to the contracting officer. The invoice specifies where NASA should
make payment, usually to the RSA account at the Bank of New York.6

When NASA receives an invoice from RSA, the contracting officer matches it to the
acceptance document, approves the invoice for payment, and sends the invoice to the certifying
officer at JSC. The certifying officer certifies the payment of funds (in dollars) to RSA by the
Department of the Treasury. The payment usually covers several invoices. The certifying
officer electronically transmits a payment schedule to the Austin Regional Finance Center, which
routes the funds through the Federal Reserve System to the RSA account at the Bank of New
York. The Bank of New York receives the funds from the Treasury, electronically transfers the
funds to the RSA account at the Bank of Foreign Trade, Moscow (Vneshtorgbank), and
notifies RSA of the transactions. Vneshtorgbank receives the transfer from the Bank of New
York and then notifies RSA of the transaction.

RSA directs Vneshtorgbank to convert dollars into rubles in the amount needed to pay its
subcontractors and to comply with conversion requirements of the Central Bank of the Russian
Federation (the Central Bank).7 Since 1999, the Central Bank has required Russian entities to
convert at least 75 percent of foreign currency (dollars) into rubles within 14 days.8 If an entity
does not direct the Central Bank to convert the dollars within the 14 days, the Central Bank
executes the mandatory conversion on the 15th day. RSA timing of the remaining conversion
depends on the requirements to pay its subcontractors and the expectation of the exchange rate
fluctuation. After conversion, RSA transfers the rubles to RSA accounts at various Russian
banks, primarily the Mir Bank in Moscow.

RSA pays its subcontractors in rubles. The amount RSA must pay its subcontractors is initially
established in both dollars and rubles in agreements between RSA and its subcontractors.
However, because of volatile fluctuations in the dollar/ruble exchange rate, soon after RSA
converts dollars to rubles for a milestone payment, RSA and its subcontractors amend their


6
  Invoices for reimbursable travel expenses and for support of RSA offices in Houston and Washington DC
specify the RSA account at the F&M Bank of Northern Virginia. These funds stay in the United States.
The payment process described in this report refers only to the Bank of New York since those funds are
routed to Russia.
7
  Before August 1998, Vneshtorgbank charged its customers a currency exchange commission of not more
than about one-half percent per transaction.
8
  Before 1999, the mandatory conversion amount was 50 percent.

                                                    4
agreements to reflect the current amount of rubles payable.9 Upon receipt of a valid invoice
from a subcontractor, RSA makes payment by transferring the rubles to a subcontractor bank
account.




9
 When Vneshtorgbank charged a currency exchange commission or fee, RSA decreased its payments to
subcontractors by the amount it paid Vneshtorgbank.

                                                  5
             Appendix C. Deliverable Items for Science Research

     Line item #     Description                                            Completion date        Funding, $M
       0003C3a       Solicited Requests for Proposal Report                     8/1/94                 0.2
       0003C3b       Integrated Plan for Science Research (initial)            11/1/94                 0.2
       0003C3c       Implementation of Integrated Plan for Science             11/1/94                 3.2
                     Research (installment 1 of 6)
       0003C3d       Administrative Expenses                                     11/1/94                0.2
       0003C3e       Integrated Plan for Science Research (final)                2/1/95                 0.1
       0003C3f       Interim Research Report                                     8/1/95                 0.1
       0003C4        Implementation of Integrated Plan for Science               8/1/95                 3.0
                     Research (installment 2 of 6)
       0003C5        Administrative Expenses                                      8/1/95                0.2
       0003C6        Interim Research Report                                      2/1/96                0.1
       0003C7        Implementation of Integrated Plan for Science                2/1/96                3.0
                     Research (installment 3 of 6)
       0003C8        Administrative Expenses                                      2/1/96                0.2
       0003C9        Interim Research Report                                      8/1/96                0.1
       0003C10       Implementation of Integrated Plan for Science                8/1/96                3.0
                     Research (installment 4 of 6)
       0003C11       Interim Research Report                                      2/1/97                0.1
       0003C12       Implementation of Integrated Plan for Science                2/1/97                3.0
                     Research (installment 5 of 6)
       0003C13       Administrative Expenses                                      2/1/97                0.2
       0003C14       Interim Research Report                                      8/1/97                0.1
       0003C15       Implementation of Integrated Plan for Science                8/1/97                3.0
                     Research (installment 6 of 6)
                                                                                           Total        20.0

Note: Shaded areas denote the six line items (milestones) that included payments for research done by
 Biopreparat.




                                                      6
Appendix D. Sections of the Scientific and Technical Advisory Council

  Discipline/Lead Organization                                # Investigations # Institutions Funding, $K
  Space Technology and Materials Science; Institute of               17              16          2450.0
  Crystallography, Russian Academy of Science
  Geophysical Studies; Institute of Earth Magnetism and               6               4          1019.32
  Radiowaves, RAS
  Space Biomedicine; State Scientific Center-Institute of            71              17          6230.0
  Biomedical Problems
  Earth Natural Resources and Environment Monitoring;                21              11          3086.786
  Institute of Radioengineering and Electronics, RAS
  Investigations of Planets and Small Bodies; Space Research         10               3          1203.55
  Institute, RAS
  Space Biotechnology;* RAO “Biopreparat”                            13               7          1649.465
  Technical Studies and Experiments; Rocket-Space Corporation         8               7           708.86
  “Energia”
  Space Astronomy; Institute of Astronomy, RAS                        5               5           370.65
  Program Integrated Analysis & Formation Effectiveness               6               2           806.45
  Analysis; Consortium “Space Regatta”
  Problems of Space Power and Propulsion; Keldysh Research            4               2           674.95
  Center, RAS
                                                                                        Total: 18,200.031


  *Space Biotechnology: Diverse set of investigations similar to U.S. biotechnology interests, including
  protein crystal growth, effect of microgravity on genetic and cellular processes, antibodies, and
  polymers; electrophoresis, etc.




                                                    7
            Appendix E. Distribution of Payments to Biopreparat10


Total Amount Paid by RSA to Biopreparat                                  $1,528,865 (100.0%)

Less: Amounts Distributed by Biopreparat:

     Joint Stock Company, “Komposit”                $ 97,686 (6.4%)

     State Research Institute
     of Applied Microbiology                          287,373 (18.8%)

     Scientific Technical Center,
     Ecology and Space                            95,010 (6.2%)

     State Research Institute of
     Highly Pure Biopreparations                  94,784 (6.2%)

     Joint Stock Company,
     "Biochimmash"                                     91,671 (6.0%)

     Saint Petersburg Vaccine and
     Serum Research Institute                          90,567 (5.9%)

     Joint Stock Company, The Institute
     of Engineering Immunology                        228,658 (15.0%)

     State Research Center of Virology
     and Biotechnology ("Vector")               381,961 (25.0%)            $1,367,710 (89.5%)

Amount Retained by Biopreparat                                             $ 161,155 (10.5%)




10
 Although payments are shown in dollars, the payments were actually made in rubles at an average
pre-1998 conversion rate of about 5,170 rubles to a dollar.
Team Members
John H. Beall, Chief Financial Officer, Johnson Space Center

Dennis E. Coldren, Program Director, Human Exploration and Development of Space Audits,
       NASA Office of the Inspector General

Thomas E. Cremins, Deputy to the Assistant to the Director for Human Space Flight, Russia

K. Lee Pagel, Administrative Contracting Officer




                                              9
